<html>
<title> - HEARING ON "NEXTGEN: AREA NAVIGATION (RNAV)/REQUIRED NAVIGATION PERFORMANCE (RNP)"</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





          NEXTGEN: AREA NAVIGATION (RNAV)/REQUIRED NAVIGATION
                           PERFORMANCE (RNP)

=======================================================================

                                (111-55)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
51-384 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A. WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)











                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Beck, Captain Gary, Vice President, Flight Operations, Alaska 
  Airlines, on Behalf of the Air Transport Association...........     3
Brantley, Tom, President, Professional Aviation Safety 
  Specialists, AFL-CIO...........................................     3
Calvaresi-Barr, Ann, Principal Assistant Inspector General for 
  Auditing and Evaluation, U.S. Department of Transportation.....     3
Day, Richard L., Senior Vice President for Operations, Air 
  Traffic Organization, Federal Aviation Administration..........     3
Fuller, Chet, President, GE Aviation Systems, Civil..............     3
Martin, Captain Jeff, Senior Director, Flight Operations, 
  Southwest Airlines.............................................     3
Sinha, Dr. Agam N., Senior Vice President and General Manager, 
  Center for Advanced Aviation System Development, The Mitre 
  Corporation....................................................     3
Thomann, Brad, Senior Vice President and Chief Operating Officer, 
  Jeppesen, a Boeing Company.....................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F. of Illinois..............................    45
McMahon, Hon. Michael E., of New York............................    53
Mitchell, Hon. Harry E., of Arizona..............................    55
Oberstar, Hon. James L., of Minnesota............................    56
Petri, Hon. Thomas E., of Wisconsin..............................    60

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Beck, Captain Gary...............................................    67
Brantley, Tom....................................................    75
Calvaresi-Barr, Ann..............................................    85
Day, Richard L...................................................   101
Fuller, Chet.....................................................   117
Martin, Captain Jeff.............................................   137
Sinha, Dr. Agam N................................................   160
Thomann, Brad....................................................   183

                       SUBMISSIONS FOR THE RECORD

Beck, Captain Gary, Vice President, Flight Operations, Alaska 
  Airlines, on Behalf of the Air Transport Association, responses 
  to questions from Rep. Michael E. McMahon, a Representative in 
  Congress from the State of New York............................    71
Brantley, Tom, President, Professional Aviation Safety 
  Specialists, AFL-CIO, responses to questions from Rep. Michael 
  E. McMahon, a Representative in Congress from the State of New 
  York...........................................................    81
Calvaresi-Barr, Ann, Principal Assistant Inspector General for 
  Auditing and Evaluation, U.S. Department of Transportation, 
  responses to questions from Rep. Michael E. McMahon, a 
  Representative in Congress from the State of New York..........    97
Day, Richard L., Senior Vice President for Operations, Air 
  Traffic Organization, Federal Aviation Administration:.........
      Response to question from Rep. Charles W. Dent, a 
        Representative in Congress from the State of Pennsylvania    30
      Response to question from Rep. James L. Oberstar, a 
        Representative in Congress from the State of Minnesota...    34
      Response to question from Rep. James L. Oberstar, a 
        Representative in Congress from the State of Minnesota...    39
      Responses to questions from Rep. Michael E. McMahon, a 
        Representative in Congress from the State of New York....   113
Fuller, Chet, President, GE Aviation Systems, Civil, responses to 
  questions from Rep. Michael E. McMahon, a Representative in 
  Congress from the State of New York............................   131
Martin, Captain Jeff, Senior Director, Flight Operations, 
  Southwest Airlines:............................................
      Brochure entitled, "Destination RNP Automatic Evolution 
        Transforming Southwest"..................................   148
      Responses to questions from Rep. Michael E. McMahon, a 
        Representative in Congress from the State of New York....   156
Sinha, Dr. Agam N., Senior Vice President and General Manager, 
  Center for Advanced Aviation System Development, The Mitre 
  Corporation, responses to questions from Rep. Michael E. 
  McMahon, a Representative in Congress from the State of New 
  York...........................................................   177
Thomann, Brad, Senior Vice President and Chief Operating Officer, 
  Jeppesen, a Boeing Company, responses to questions from Rep. 
  Michael E. McMahon, a Representative in Congress from the State 
  of New York....................................................   192



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    HEARING ON "NEXTGEN: AREA NAVIGATION (RNAV)/REQUIRED NAVIGATION 
                           PERFORMANCE (RNP)"

                              ----------                              


                        Wednesday, July 29, 2009

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask that all Members, staff, and everyone in the 
room turn electronic devices off or put them on vibrate.
    The Subcommittee is meeting today to hear testimony on 
"NextGen: Area Navigation and Required Navigation Performance 
Performance." The Chair would ask unanimous consent that the 
gentleman from Alaska, the former Chairman of the Full 
Committee, Mr. Young, a Member of the Full Committee, be 
allowed to participate in today's Subcommittee hearing. Without 
objection, so ordered.
    I have a lengthy opening statement that I will submit for 
the record and then recognize my Ranking Member, Mr. Petri, for 
any remarks he may have, and then we will go directly to 
witnesses.
    I welcome everyone here to the Subcommittee hearing on 
"NextGen: Area Navigation and Required Navigation Performance." 
The employment of RNAV and RNP procedures are key near to 
midterm NextGen initiatives. RNAV and RNP procedures are part 
of the Federal Aviation Administration's NextGen implementation 
plan and are expected to be a major part of the NextGen midterm 
implementation task force final report that is due next month.
    Let me say that we have indicated in the past, since I have 
been Chair of the Subcommittee and even before that, when we 
have been examining NextGen and its progress that we would hold 
hearings from time to time to get a progress report as to where 
we are, where we are headed, and this hearing today is a part 
of that commitment.
    With that, the Chair would recognize my Ranking Member, Mr. 
Petri, for any remarks that he might have.
    Mr. Petri. Thank you very much, Mr. Chairman. I do want to 
submit my full statement for the record and just say that I 
very much thank you for having another of a series of meetings 
and hearings that this Subcommittee has had on NextGen and 
issues surrounding it.
    This is a major undertaking. It is outside the normal scope 
of the FAA as a line agency to come up with a whole new 
technology, and there are a lot of issues involved in how to--
not just technical issues, but business issues as to how to 
roll out this new technology in a way that is attractive and 
used by the community and that people will buy into because it 
is in their interest to do it at various stages of the 
procedure.
    So I am hopeful that there will be even more discussion and 
consultation and work to kind of come up with a roadmap that 
makes sense for the aviation community for rolling this out so 
that it can be used by different companies and in a way that 
maybe gives them a little competitive edge and incentivizes 
their competitors to buy into it rather than being done sort of 
a mandate approach.
    There are a lot of issues involved in this whole area, and 
it is clearly very important to try to get it right in advance 
rather than pointing fingers, as often happens with various 
major Federal undertakings, because things haven't worked after 
the fact.
    And with that, I thank all of our witnesses for being here 
and look forward to your testimony.
    Mr. Costello. I thank the Ranking Member and would advise 
all Members that their full statement will be submitted and 
appear in the record.
    The Chair would now recognize and introduce our witnesses 
today. Let me say to each of our witnesses that your full 
statement will appear in the record as well. It will be in the 
record as you submit it. We would ask that you summarize your 
testimony in 5 minutes, and that will allow for us to have 
adequate time to ask questions.
    The first witness will be Mr. Richard L. Day, who is the 
Senior Vice President for Operations, Air Traffic Organization, 
Federal Aviation Administration.
    Ms. Ann Calvaresi Barr, who is the Principal Assistant 
Inspector General for Auditing and Evaluation with the U.S. 
Department of Transportation.
    Dr. Agam Sinha, who is the Senior Vice President and 
General Manager for the Center of Advanced Aviation System 
Development at the MITRE Corporation.
    Mr. Tom Brantley, the President of the Professional 
Aviation Safety Specialists, AFL-CIO.
    Mr. Chet Fuller, who is the President of GE Aviation 
Systems, Civil.
    Captain Jeff Martin, the Senior Director of Flight 
Operations of Southwest Airlines.
    Mr. Brad Thomann, who is the Senior Vice President and 
Chief Operating Officer with JEPPESEN, a Boeing company.
    And Captain Gary Beck, who is the Vice President of Flight 
Operations of Alaska Airlines on behalf of the Air Transport 
Association.
    So ladies and gentlemen, your statement will appear in the 
record. And at this time I would call on Mr. Day to offer your 
testimony.

    TESTIMONY OF RICHARD L. DAY, SENIOR VICE PRESIDENT FOR 
    OPERATIONS, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
    ADMINISTRATION; ANN CALVARESI BARR, PRINCIPAL ASSISTANT 
INSPECTOR GENERAL FOR AUDITING AND EVALUATION, U.S. DEPARTMENT 
OF TRANSPORTATION; DR. AGAM N. SINHA, SENIOR VICE PRESIDENT AND 
     GENERAL MANAGER, CENTER FOR ADVANCED AVIATION SYSTEM 
 DEVELOPMENT, THE MITRE CORPORATION; TOM BRANTLEY, PRESIDENT, 
PROFESSIONAL AVIATION SAFETY SPECIALISTS, AFL-CIO; CHET FULLER, 
  PRESIDENT, GE AVIATION SYSTEMS, CIVIL; CAPTAIN JEFF MARTIN, 
 SENIOR DIRECTOR, FLIGHT OPERATIONS, SOUTHWEST AIRLINES; BRAD 
  THOMANN, SENIOR VICE PRESIDENT AND CHIEF OPERATING OFFICER, 
    JEPPESEN, A BOEING COMPANY; AND CAPTAIN GARY BECK, VICE 
PRESIDENT, FLIGHT OPERATIONS, ALASKA AIRLINES, ON BEHALF OF AIR 
                     TRANSPORT ASSOCIATION

    Mr. Day. Thank you, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee, and thank you for 
inviting me here today to discuss the FAA's program for RNAV 
and RNP.
    These are some of what we call Performance-based 
Navigational Procedures, or PBN. PBN requires a certain level 
of performance from the aircraft and the air crew to fly a 
certain type of air traffic procedure. It used to be that 
aircraft could navigate primarily by ground-based navigational 
aids. Depending on the location and the position of those 
navigational sources, the aircraft was limited in how 
efficiently and precisely it could fly. Now, with advances in 
technology, we are able to take advantage of space-based 
navigational sources, such as GPS.
    RNAV and RNP gives greater aircraft flexibility in flight 
paths and profiles, and it enables them to fly more precise and 
efficient routes. This leads to potential for flights to reduce 
the miles flown, save fuel, and improve efficiency. The 
development of RNAV/RNP procedures is a relatively young 
program at the FAA, as you can see from the slide--and I know 
it is difficult to see--which shows the current state of RNAV/
RNP implementation.
    Since 2002, we have accomplished quite a bit. Currently, we 
have 159 RNAV routes and 270 RNAV arrival and departure 
procedures implemented into the NAS. We also have an additional 
163 RNP special aircraft and air crew required approaches, or 
SAAAR approach procedures in the NAS. By the end of fiscal year 
2009, we anticipate that we will have an additional 48 RNAV 
routes, 35 RNAV arrival and departure procedures, and 29 RNP 
SAAAR approach procedures in place. Overall, we have over 8,000 
PBN procedures throughout the NAS.
    Along the way, we have encountered some challenges and we 
have learned from them. We intend to apply those lessons 
learned as we move forward. For example, while we have a 
standard process for developing RNAV and RNP procedures in the 
terminal area, we do not have a comparable process for 
developing procedures elsewhere in the operational environment. 
We believe this is an area where we can improve by mapping 
agencywide all the PBN processes to standardize how we develop, 
test, chart, and implement PBN procedures. I am pleased to 
report that we should be starting work on the mapping process 
in the next couple of weeks.
    As we move forward, there are other challenges that 
continue to face us in the advancement of RNAV and RNP. First 
on the list of challenges is prioritization of which procedures 
to create and implement and in what order. Second are the 
environmental issues which require time for us to examine. 
Third, as the industry moves to equip, we are seeing a hybrid 
equipage environment where some aircraft are capable of flying 
RNAV/RNP and others are not.
    Some of our other technical challenges are illustrated in 
the second slide that we have prepared for this hearing. Each 
phase of flight faces unique challenges. For example, for 
departures and arrivals we may be faced with deconflicting air 
traffic between adjacent airports. In the en route environment, 
we may need to avoid restricted military space, and for 
arrivals and departures we want to ensure that we provide our 
controllers with the right tools to make the right decisions 
when managing the air traffic.
    I want to assure you that the FAA has developed a solid 
foundation of routes and procedures for RNAV/RNP as part of 
NextGen. Using this foundation, we are transitioning from a 
site-by-site or runway-by-runway implementation process for a 
NextGen readiness concept by treating the system as a network. 
This will include development of an integrated system of PBN 
routes and procedures NAS-wide. This broader view will help to 
advance and accelerate NextGen as much as possible.
    Mr. Chairman, Ranking Member Petri, Members of the 
Subcommittee, this concludes my prepared remarks, and I look 
forward to your questions.
    Mr. Costello. The Chair thanks you, Mr. Day, and now 
recognizes Ms. Calvaresi Barr.
    Ms. Calvaresi Barr. Thank you, Mr. Chairman, Members of the 
Subcommittee. I appreciate you inviting us here to this 
important hearing on FAA's efforts to modernize the use of 
airspace through RNAV and RNP. Inspector General Scovel regrets 
not being able to make it here today due to a family medical 
matter. However, I can assure you that this statement has 
received his full attention.
    As you know, RNAV/RNP are key to the success of FAA's 
NextGen. They are the legs of the table. Without them NextGen 
will not function. By relying on satellite navigation and on-
board avionics to maximize airspace, RNAV and RNP could achieve 
substantial benefits, including fuel savings and improved 
airport arrival rates.
    While RNAV and RNP have considerable industry support, some 
stakeholders are dissatisfied with FAA's overall method for 
implementing these initiatives. Today I will focus on two key 
areas: first, implementation concerns that limit the benefits 
of RNAV and RNP and, second, the lack of clarity surrounding 
the role and oversight of third parties in developing new 
procedures.
    RNAV/RNP have achieved some benefits, but FAA must address 
several concerns to realize their full potential. First, FAA 
has yet to develop unique routes. Instead, the agency places 
new routes over existing ones and continues to focus on the 
quantity rather than the quality of new flight paths. As 
airline representatives know, the new routes provide few, if 
any, added benefits because they are essentially the same ones 
that airlines already fly.
    Another longstanding concern is the potential impact mixed 
equipage will have on RNP's implementation. Experts believe 
most aircraft will need to be equipped with advanced avionics 
to realize benefits. Equipping the aircraft has been a subject 
of intense debate. Until this is resolved, concerns remain that 
mixed equipage will increase controller workload and may 
introduce new hazards in the congested airspace. We are 
particularly concerned about this given the large number of 
developmental controllers in the system.
    A third concern is that FAA has not developed a plan to 
effectively manage interdependent efforts, including RNAV and 
RNP, airspace redesign, and air traffic control modernization 
systems. All of these efforts must be fully integrated and 
synchronized to maximize benefits. As FAA begins to develop 
more complex and demanding routes and procedures, it will need 
to reevaluate, align, and coordinate plans and budgets as well 
as address controller and pilot training needs.
    Now I would like to focus on the second key area regarding 
third parties. The role of third parties in developing RNP 
procedures is unclear, and industry is skeptical of FAA's 
ability to deliver the more complex procedures. At industry's 
request, FAA entered into agreements with two third parties to 
design and develop certain RNP procedures. Airlines believe 
third parties could provide expertise and resources to 
complement FAA's efforts and to achieve quality procedures. 
However, FAA program officials told us that they do not plan to 
use third parties to speed RNP adoption because FAA is meeting 
its annual production goals.
    As part of the agreement, FAA provided an option for 
carriers to use third parties to develop public procedures--
those that can be used by all airlines with equipped aircraft. 
But we question the soundness of this business case because it 
is unlikely that carriers will invest in procedures that other 
carriers will benefit from at no cost. Air carriers that choose 
to use third parties to develop public procedures would 
essentially be investing in their competitors.
    From the carriers' perspective a more logical business case 
would be to use special RNP procedures, those that are designed 
specifically for their use and are not available to other 
carriers. However, FAA is concerned that an increasing number 
of special procedures will further burden controllers and 
complicate the airspace.
    Ultimately, the role of third parties will require an 
understanding of the in-house skill mix and expertise of FAA, 
but this type of assessment has not been done. Absent clear 
roles and responsibilities, it is difficult for FAA to 
establish a plan to oversee third parties.
    Over the next decade, FAA and the industry plan to invest 
billions of dollars in RNAV/RNP and other NextGen efforts. To 
better ensure efficient use of taxpayer and industry dollars, 
we will continually monitor FAA's vision and strategy for RNAV/
RNP, the role and use of third parties, and training needs for 
controllers and pilots.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions that you or other Members of the 
Subcommittee may have. Thank you.
    Mr. Costello. The Chair thanks you and now recognizes Dr. 
Sinha.
    Mr. Sinha. Good morning, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee. Thank you for inviting 
me to participate in today's hearing on NextGen: RNAV and RNP. 
My testimony today will highlight some examples of RNAV and RNP 
applications which together form the performance-based 
navigation initiative, commonly known as PBN, and constitute a 
foundational element of NextGen.
    RNAV enables aircraft to fly any desired path rather than 
flying to or from a fixed ground navigation aid. RNP takes 
advantage of more advanced on-board avionics to monitor the 
aircraft's navigation performance and to alert pilots when the 
required performance is not being achieved.
    RNAV and RNP equipage has been steadily increasing over the 
last several years. For air transport aircraft operations in 
2009, RNAV equipage exceeds 90 percent, RNP equipage exceeds 60 
percent, and advanced RNP equipage with curved-path 
capabilities is nearly 40 percent.
    RNAV and RNP procedures are being implemented to achieve 
repeatable and predictable departure, en route, arrival, and 
approach paths for aircraft. RNAV departure procedures 
implemented at Atlanta in 2006 have shown a measured capacity 
gain of 9 to 12 departures per hour. RNAV procedures also 
result in reducing the workload associated with the routine 
voice communications between pilot and air traffic controllers. 
Atlanta RNAV departure procedures show a decrease of about 50 
percent in voice communications required between the pilots and 
controllers.
    Similar RNAV procedures have been implemented at airports 
such as Dallas/Fort Worth, Las Vegas and Phoenix with a 
cumulative savings of $130 million from 2006 to 2008. RNP 
procedures at Portland have resulted in fuel savings of 150,000 
gallons and a reduction of 7,500 tons of carbon emissions since 
implementation in 2006.
    In many metropolitan areas, arrival and departure paths at 
nearby airports can interfere with each other. Decoupling 
operations at Chicago O'Hare and Midway through the use of an 
RNAV departure procedure at Chicago O'Hare in combination with 
an RNP approach for Chicago Midway has been modeled to show a 
savings of approximately $4-1/2 million per year in reduced 
delays under a full PBN equipage scenario.
    RNP SAAAR that Rick Day has defined can provide an 
alternative means of access to runway ends that currently 
cannot support an ILS. At Palm Springs airport, Alaska Airlines 
has reported over 20 instances where they were able to complete 
the flight and land at Palm Springs using RNP SAAAR approaches 
since its implementation in 2005.
    Within the descent phase of flight, a strategy for reducing 
fuel use and emissions is to minimize the use of level offs. A 
general term for the broad class of descent routes and 
procedures which are designed to reduce fuel and carbon 
emissions during descent is Optimized Profiled Descents (OPDs). 
Several domestic trial implementations of regularly scheduled 
flights have shown significant promise. OPD flight trials at 
Atlanta and Miami during 2008 involved 20 flights, with a fuel 
savings of 50 gallons per flight and a carbon emissions 
reduction of approximately 450 kilograms per flight.
    MITRE recently conducted a nationwide analysis of arrival 
flows at over 100 airports to assess the potential application 
and benefits of OPD procedures. Ten airports were identified 
with less complex airspace structures and flows where OPDs can 
be implemented in the near term. The estimated range of 
benefits achieved at those airports is equivalent to removing 
4,400 to 13,000 cars off the road every year. At larger 
airports the benefits are higher but the implementation of OPD 
is more complex and is likely to require a longer time.
    Beyond the near term, there are opportunities to combine 
different NextGen capabilities to achieve even greater 
benefits. Concepts for approaches to closely spaced parallel 
runways combine the use of ADS-B and RNP capabilities with the 
potential capacity benefit of adding 15 to 22 arrivals during 
instrument meteorological conditions at airports such as San 
Francisco, Los Angeles, and Seattle.
    In summary, RNAV and RNP implementation over the past few 
years have resulted in significant benefits. These 
implementations have been successful due to the close 
collaboration between the FAA and the aviation community 
through forums such as RTCA and the Performance-based 
Operations Aviation Rulemaking Committee, commonly known as 
PARC.
    As we move forward, we must consider the implementation of 
those RNAV and RNP procedures that result in measurable high 
benefits to the community, not just the number of procedures 
that are implemented. Furthermore, we suggest a focus on 
implementing OPD procedures at airports with less complex 
airspace structures and flows which can more easily be achieved 
in the near term. OPD procedures implementation at airports 
with more complex airspace structures and flows should be 
undertaken as a part of a more comprehensive airspace design.
    Finally, as we look ahead, RNAV and RNP, in combination 
with other capabilities such as ADS-B, data communications, 
enhanced ground automation capabilities, and safe reduction in 
separation standards, can result in even greater benefits.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions the Committee may have.
    Mr. Costello. Thank you, Dr. Sinha. The Chair now 
recognizes Mr. Brantley.
    Mr. Brantley. Chairman Costello, Congressman Petri and 
Members of the Subcommittee, thank you for inviting us to 
testify today on RNAV/RNP.
    PASS represents approximately 11,000 FAA employees 
throughout the United States and overseas, including the flight 
procedures development specialists, flight inspection pilots, 
and mission specialists in aviation systems standards.
    It is generally accepted that the use of new performance-
based routes and procedures has great potential to enhance 
system capacity and reduce environmental impact and fuel costs. 
However, a lack of clear guidance from the FAA has led to 
conflicting ideas among the industry, FAA, and even 
congressional proponents as to how these benefits can best be 
realized.
    An agenda supported by many in the aviation industry and 
advanced by some Members of Congress is to set quotas for the 
production of new RNP procedures without regard for the 
feasibility of such a plan. PASS believes that quotas are 
unrealistic, very likely unachievable, and are not based on the 
potential safety, capacity, and operational benefits to the 
overall NAS.
    NextGen's promise is founded on shifting from ground-based 
to satellite-based operation. This will not be accomplished 
solely through the use of new technology. It will be a mix of 
new technology procedures and operations that will transform 
our current system into the one promised by NextGen. But it 
seems that the drive for industry to equip with new technology 
to realize benefits as soon as possible may lead to unintended 
problems that could actually delay those gains. The best 
equipped, best served policy offered by the FAA may not be the 
best way to promote the adoption of new technology by users.
    Since the FAA left it to the RTCA NextGen Implementation 
Task Force to define the specific policy details, the priority 
treatment promised by the FAA is unclear. Yet the rush to gain 
this priority treatment has begun. The very complex issues 
involved in developing and implementing new RNP procedures in 
support of NextGen won't necessarily align themselves with the 
best equipped, best served policy.
    The work involves developing an integrated infrastructure, 
not individual stand-alone procedures. Obstruction and 
environmental issues must be resolved; controlled airspace and 
air traffic flow must be taken into consideration; any needed 
airspace rulemaking processes must be initiated; and 
coordination with air traffic is needed to ensure that the new 
procedure can be safely integrated into the management of the 
overall airspace.
    Additionally, during the development of a new procedure, 
changes in other procedures are often identified, and further 
coordination must take place to ensure that everything 
continues to work together.
    The numbers of special use procedures meant for the benefit 
of the user developing them have always been small in 
comparison to public use procedures which are meant for the use 
of all qualified users of the system. However, the push to 
develop thousands of new special use procedures would require a 
coordination unlike any we have ever seen. Without extensive 
oversight, these new procedures may not fit ongoing airspace 
redesign efforts, and they may conflict with other RNP 
development that is underway at the same time. To assume that 
all conflict with public use procedures will be resolved 
through the FAA's best equipped, best served policy is 
unrealistic.
    PASS also feels that any policy change to allow third 
parties to develop public use RNP procedures is misguided. PASS 
believes this safety critical work to be inherently 
governmental. As such it should not be outsourced to private 
vendors. Additionally, the changes in air traffic operations 
that will be required for a systematic transition to the 
capabilities offered by NextGen must not be unduly rushed. We 
cannot forget that the changes that are coming include people, 
not just technology and procedures.
    The FAA has said that it believes it needs to take a 
strategic approach to RNP/RNAV procedures development and any 
corresponding airspace redesign work that is required to deploy 
those procedures. PASS agrees with this approach and stands 
ready to work with the FAA and other stakeholders to accomplish 
the transition to the new capabilities.
    That concludes my statement and I thank the Subcommittee 
for having me here today.
    Mr. Costello. The Chair thanks you, Mr. Brantley, and now 
recognizes Mr. Fuller.
    Mr. Fuller. Mr. Chairman, Members of the Committee, thank 
you for opportunity to testify today. There are a few things I 
would like you to believe about RNP.
    First, RNP means greater accuracy and precision and RNP 
enables efficiency. It is through RNP that operators and the 
flying public will derive the value of the NextGen air traffic 
management system.
    Second, RNP provides enormous environmental benefits.
    Third, RNP is fundamental to the transition from the past 
to the future.
    Fourth, the technology is ready today. All we have to do to 
reap the benefits of RNP is accelerate implementation.
    GE Aviation is a leader in efficient technology, known for 
its innovation in aircraft engines. But GE Aviation's 
navigation systems have guided the world's most successful 
aircraft for almost 2 decades. In fact, every 2.7 seconds an 
aircraft goes airborne with a GE Aviation flight management 
system computer guiding it.
    Our current ATC system is outdated. It is a very large sky, 
but we don't use very much of it, and what we do use, we use 
pretty inefficiently. The airways we fly today are 8 nautical 
miles wide because they have to be.
    Radar was a technical wonder 50 years ago, but today it is 
an anachronism. Today's GPS equipped aircraft are almost always 
within a wingspan of airway centerline. The improved navigation 
accuracy in all four dimensions enables increased airspace 
capacity and efficiency.
    Let me tell you about a couple of examples which showcase 
the benefit of RNP and GE's technology. In Brisbane, Australia, 
Qantas has been the lead carrier in a project that has 
demonstrated that air traffic controllers can integrate RNP 
capable aircraft and non-RNP capable aircraft in a medium 
traffic density environment. They have already implemented RNP 
at 15 Australian airports and are saving fuel and carbon today.
    Another demonstration conducted by Scandinavian Airlines in 
Sweden has taken RNP one step further and added the dimension 
of time. Time increases predictability. With four dimensional 
trajectory-based operations, they have added the ability to 
deconflict traffic through trajectory negotiation. In thousands 
of approaches into Stockholm, they have reduced by over 50 
percent the area affected by noise greater than 65 db through 
the use of RNP and 4D TBO.
    In the case of RNP, it should be noted that all approaches 
are not created equal. If you take an existing approach and 
merely recreate it so that it might be flown using RNP 
equipment and procedures, you get exactly the same results. No 
reduction in noise, no reduction in fuel, and no reduction in 
distance traveled. Unfortunately, many of the RNP procedures 
posted in the United States over the last few years simply 
replicate the existing ground-based navigation procedures and 
in doing so create very little benefit.
    We support the emphasis on measuring the benefits of new 
RNP procedures as included in the Senate's FAA reauthorization 
bill. We should increase the rate of RNP procedure deployment 
and have metrics to ensure their effectiveness. RNP offers 
substantial environmental benefits. It is estimated that RNP 
has the potential to cut global CO-2 emissions by 13 million 
metric tons. That is 1.2 billion gallons of fuel. This is a 
very important path to energy independence.
    Oddly enough, one of the factors slowing down the 
proliferation of RNP procedures is the environment. Because the 
RNP path differs from the path of the previous instrument 
approach there is some question as to whether an environmental 
impact statement is required to determine the impact of new RNP 
paths. While this is a valid concern, there are immediate ways 
that beneficial RNP paths can be designed that will not require 
environmental review. In particular, RNP routes could be 
designed in a way that replicate the routes taken by aircraft 
on visual approaches over the same track of ground.
    The benefits of RNP are very clear. So what should we do? 
We think we should accelerate the creation of high quality RNP 
procedures that use aircraft performance to drive the 
efficiency. We think that, second, we need to create metrics 
for success and measure approaches based on their efficiency.
    Third, we need to accelerate the movement toward 4-
dimension trajectory-based operations and add time as an 
element of the approach design.
    And fourth, we need to integrate the efforts around 
communications, navigation, and surveillance so that there is 
one strategy and one vision. We think the time is now to work 
together for the benefit of the environment, the airline, and 
the flying public.
    Thank you very much for your time.
    Mr. Costello. The Chair thanks you, Mr. Fuller, and now 
recognizes Captain Martin.
    Mr. Martin. Thank you, Chairman Costello, Ranking Member 
Petri, and Members of the Subcommittee. My name is Jeff Martin. 
I am the senior director of flight operations and a Captain for 
Southwest Airlines. Since 2006, I have been directing 
Southwest's NextGen program, training our nearly 6,000 pilots 
and equipping more than 500 Boeing 737 aircraft in RNP and 
associated NextGen efforts.
    Like Southwest, our RNP project is unique. In March of 
2007, Southwest made an unprecedented commitment of $175 
million to advance NextGen and make RNP an integral part of our 
day-to-day operations.
    Southwest based our business plan and set the standard for 
a return on investment by determining that we need to reduce 
our flight track miles by 3 miles per leg. Reducing flight 
track miles burns less fuel. Fuel is an airline's highest cost 
behind labor. So there is a national incentive for airlines to 
reduce fuel burn. That also translates into reduced aircraft 
emissions and lower fuel costs.
    Southwest NextGen RNP project can be broken down into four 
distinct work areas. One, aircraft equipage and modification. 
Each of our 500 aircraft required some equipment modification 
that consumed over 80 percent of our NextGen budget. Today 66 
percent of our fleet is RNP capable, and we will complete our 
remaining motivations within 4 years.
    Two, FAA regulatory approval. For 2 years Southwest has 
been working with the FAA towards achieving regulatory 
approval. We learned last night that we had received FAA 
approval from the FAA to proceed to our next level of our RNP 
certification.
    Three, pilot training. Training is already underway, but 
developing that curriculum took 19 months and consumed 13 
percent of our budget.
    And fourth and last, airport procedures. Southwest is 
working closely with the FAA to assist in the design of new RNP 
flight procedures. Our goal is to have at least one carbon 
negative RNP procedure at each of the airports we serve, much 
like Chicago's Midway Airport as you can see on the screen. It 
is safe, it deconflicts two airports, it reduces fuel and 
reduces emissions.
    A recent audit of our airport procedures revealed that we 
have 412 runway ends that we serve. Of these 412 runway ends, 
69 RNP procedures currently exist. Of these 69 procedures, 6 
would reduce fuel and reduce emissions.
    From start to finish, Southwest's RNP program will take 6 
years. In addition to time and money, it has required focus, 
project oversight, and considerable attention to human factors 
such as education and training.
    As mentioned, RNP benefits the environment, it benefits the 
consumer, it benefits the carrier. By using available 
technologies like RNP, the implementation of NextGen can be 
accelerated. If implemented correctly and widely throughout the 
national aviation system, RNP will, one, strengthen our 
environment by greatly reducing the amount of fuel we consume 
and greenhouse gases we emit; two, provide our customers with 
less congestion and fewer delays; and, three, improve safety 
and operational performance of the aviation industry.
    Based on Southwest Airline's own demonstration flights, RNP 
can reduce fuel burn and carbon dioxide emissions by as much as 
6 percent per flight. Translating those savings across our 
entire fleet, we can burn 90.6 million less gallons of fuel and 
reduce our CO-2 emissions by 1.9 billion pounds annually at 
Southwest airlines.
    NextGen's success is dependent on industry and government 
working together. We have worked closely with the FAA from day 
one and we continue to have quarterly meetings with the FAA 
Administrator. The FAA Administrator, Randy Babbitt, said--and 
I quote--we must take advantage of what operators already have 
invested.
    RNAV and RNP work. We know that. With the airlines and the 
economy still looking at a steep climb, the return on 
investment is even more important. Southwest Airlines could not 
agree more. Achieving a return on investment is necessary to 
justify continued NextGen efforts.
    Let me conclude with lessons learned. During the past 3 
years, our airline has been fully engaged and committed to our 
NextGen project. We have already equipped over 300 aircraft and 
will complete our pilot training by 2010. Developing and 
implementing our RNP project is without a doubt one of the most 
complicated, time consuming, and expensive projects that 
Southwest Airlines has undertaken.
    In order for the industry and the public to achieve the 
full benefits of RNP, it is incumbent on the FAA to design and 
implement flight procedures like those at Chicago's Midway 
Airport. For NextGen to succeed, FAA, airlines, and other 
stakeholders must all be in sync.
    Existing regulations and guidelines from the 1960s and 
1970s need to be updated in order to utilize and benefit from 
NextGen capabilities and technology. Successful use of RNP and 
NextGen requires, one, a definable return on investment; two, 
an emphasis on the quality of the procedure, not just meeting a 
quota for production; and, three, a mandate to design and 
implement new flight procedures that will reduce airline 
emissions and fuel burned.
    Southwest Airlines is proud to be leading the industry in 
deploying our 500 aircraft into NextGen airspace. Thank you for 
this opportunity to testify and to share our thoughts and 
experiences with RNP. We look forward to working with the FAA, 
elected officials, and industry stakeholders in ensuring RNP's 
future success. Southwest Airlines remains committed to RNP and 
NextGen.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Captain Martin, and 
recognizes Mr. Thomann.
    Mr. Thomann. Chairman Costello, Ranking Member Petri, 
distinguished Members of the Subcommittee, my name is Brad 
Thomann, and I am the Senior Vice President and Chief Operating 
Officer at JEPPESEN.
    JEPPESEN is a wholly owned subsidiary of the Boeing Company 
based near Denver in Inglewood, Colorado. For more than 75 
years, our company has been the premier provider of navigation 
charts, databases, and other information solutions to the 
general aviation, business aviation, and commercial entities 
around the world in airlines.
    Mr. Chairman, I really appreciate your convening this 
hearing to discuss NextGen and RNAV and RNP. JEPPESEN and 
Boeing believe these procedures are an essential element in the 
NextGen transformation. In the previous testimony, we have 
heard a lot about what RNP is. Please allow me to show you 
visually what we are talking about.
    So what we are looking at here is a traditional approach. 
These traditional approaches are typically based upon land-
based navigation or way points off those land-based navigation. 
There is large buffers around terrain and obstacles and 
restricted airspace. There is a complex network obviously to 
these base navigational facilities. And typically in approach 
procedures pilots do what we call a dive and drive procedure 
where we hit a way point or we hit one of these navigational 
aids and reduce power and we come down. And that is how in this 
case we make a descent into the airport and for the landing 
where we catch the ILS or the localizer. A dive and drive 
procedure is not very fuel efficient, nor is it environmentally 
friendly.
    Now, a vast majority of the instrument approaches in the 
world today are flown according to this design philosophy. This 
is well established, very safe, but we all agree it is near its 
maximum capability in terms of efficiency, carbon emissions, 
and capacity.
    So let me show you, Mr. Chairman, now what the future looks 
like. Let us look at RNP. So this is an RNP approach. And again 
as we have talked already in testimony, it is a satellite-based 
navigation based on GPS with RNAV performance monitoring. RNP 
of course requires special certifications with the pilot, the 
airplane, close coordination obviously with ATC. There is 
training and equipment that Captain Martin talked about. But it 
gives us a lot greater design flexibility. It allows us to do 
curve-path approaches, stabilize continuous descent, which is 
safer, gives pilots--I think the pilots in this room would 
disagree--or agree. It gives us a lot more situational 
awareness as we are flying stabilized approaches rather than 
dive and drive, And it puts us in this very confined and 
contained and safe containment corridor.
    So why do we want to do this? And we have talked about this 
throughout the panel, but one of the biggest one obviously to 
pilots in this Committee and us is safety. It allows us to 
provide these stable approaches, it allows to us get away from 
this no dive and drive, a continuous descent approaches, pilots 
obviously would agree that this is a safer method. It gives us 
protection in engine-out emergencies and ensuring limited areas 
with the very precise navigation requirement. It is 
environmentally friendly, as we have already heard. Emissions 
reductions, noise reductions is critical, not only for the 
aviation community, the business and general aviation 
community, but the military community as well.
    And of course we have heard about the financial savings. We 
get fuel savings as we have less path that we travel over the 
ground. We get fuel savings as we have more of an idle approach 
to this. And that allows the airlines to have greater 
utilization. Every minute that they can shave off of a flight 
is another minute they can put in productive service.
    RNP is a critical part of Next Generation. The FAA has 
built over 140 RNP procedures at 42 airports. And as we have 
heard, some of the procedures do not provide the desired 
benefit of time or lower minimums to allow us to get in. Only 
15 to 25 percent of the aircraft, as I know it right now, are 
equipped to use RNP and we need continued justification for the 
airlines to equip like Southwest and Alaska, and that is by 
building more procedures and allowing RNP to more airlines to 
participate in and take advantage.
    We need more procedures. And third party providers like 
JEPPESEN can complement and partner and work side by side with 
the FAA in order to give us more capacity.
    However, we do feel that the FAA should conduct ongoing 
maintenance of procedures once they are built. There is no one 
better equipped, no one with a greater core competency to 
understand our national airspace system than the FAA. And so 
like we are doing currently at JEPPESEN and other providers, we 
work every day side by side with the published approaches for 
the airlines around the world, working with the FAA, and we 
suggest we continue to have that great working relationship.
    So in summary, RNP is a vital part of NextGen. This picture 
up here is Heng Shan, China, a very complex terrain approach 
that we designed out in China. It is a technology that is ready 
now. We don't need to reinvent the wheel. What we do need to do 
is continue to work together, government and industry, to make 
this a reality.
    Thank you, Mr. Chairman. I would be happy to answer any of 
your questions.
    Mr. Costello. The Chair thanks you, Mr. Thomann, and now 
recognizes Captain Beck.
    Mr. Beck. Thank you, Chairman Costello and Ranking Member 
Petri and Members of the Subcommittee. My name is Gary Beck. I 
am the Vice President of Flight Operations for Alaska Airlines. 
I came to Alaska Airlines from Delta Airlines, where I served 
as Senior Vice President of Flight Operations and Chief Pilot. 
I am pleased to testify today on behalf of the Air Transport 
Association and offer Alaska Airlines' unique experience with 
and perspective on RNP technology. My testimony today will 
focus on three key points.
    First point, RNP is proven technology. Alaska Airlines has 
a relatively long history with RNP technology, having pioneered 
its use during the mid-1990s to improve safety and reliability 
of our flights operating into and out of Juneau, Alaska, an 
airport known for its bad weather and challenging mountainous 
terrain. The first RNP-guided flight path was used by Alaska 
Airlines to land in Juneau in 1996.
    As many of you know, RNP enables aircraft to fly more 
direct routes with pinpoint accuracy and reduces diversions due 
to weather by using on-board navigation technology in the 
Global Positioning System satellite network. It improves safety 
and reliability in all weather conditions and reduces reliance 
on ground-based navigational aids.
    You could say the rough terrain and equally rough weather 
in the State of Alaska gave the company the business case to 
invest early in innovative technology that could help us more 
reliably and safely serve communities throughout the State.
    In doing so, our corporate leaders then took a risk in 
being the first major U.S. Air carrier to invest in RNP, an 
unproven technology at that time. We believe that risk was one 
worth taking. Today we are the only major domestic air carrier 
with a completely RNP equipped fleet and fully trained crews.
    In addition to RNP, our all-Boeing 737 fleet is 100 percent 
equipped with other modern safety technology, including the 
Heads-up Guidance System, which allows take-offs and landings 
at the lowest minimum weather conditions certified by the FAA, 
as well as the Runway Awareness and Advisory, or RAAS, System, 
a key tool in alleviating runway incursions. Alaska is the 
first U.S. passenger carrier to install RAAS on all of its 
aircraft.
    Since that first RNP flight into Juneau in the mid-1990s, 
Alaska Airlines has launched RNP procedures in partnership and 
with the approval of the FAA into Palm Springs, San Francisco, 
Portland, Oregon, and cities throughout the State of Alaska. 
Alaska Airlines was also the first carrier to use RNP precision 
technology to land aircraft at Reagan National Airport right 
here in Washington, D.C., having worked with the FAA after 9/11 
on the development of the Reagan procedures. Recognizing the 
safety and environmental advantages of RNP approaches and 
landings, the FAA worked diligently to make the RNP procedures 
publicly available to all airlines that operate at Reagan 
national.
    In total, Alaska Airlines currently has RNP approaches 
available to us at 23 airports throughout our system, nine of 
which we developed with the coordination and approval of the 
FAA.
    In another first on the RNP front, last December, the FAA 
approved Alaska Airlines to become the first U.S. commercial 
air carrier to conduct its own RNP flight validation, laying 
the groundwork for faster procedure approvals.
    Second point. RNP saves time, fuel, and emissions. The 
numbers speak for themselves. For example, in 2008, Alaska 
Airlines used RNP procedures 12,308 times. 1,774 of these were 
called saves. A save is defined as an operation that would not 
have been completed if RNP were not available. In other words, 
the flight would either have been canceled or diverted. In 
doing so, we saved 1-1/2 million gallons of fuel, which equates 
to a savings of approximately 17,000 metric tons of CO-2 
emissions. In addition, we realized a savings of $17 million in 
operating costs.
    Third, RNP is a key tool in the NextGen modernization 
effort. The original purpose of RNP was to provide guidance to 
runways without Navaids and to reduce minimums. However, RNP is 
now taking a new path. As part of the NextGen effort, the same 
technology can and should be used to enhance capacity and 
create more efficient approach and departure paths. In order 
for the operational and environmental benefits of these more 
efficient paths to be realized, the FAA must implement new 
standards and procedures that enable the technology to be fully 
utilized. For example, the FAA must develop new reduced 
separation standards that take advantage of RNP's technological 
capabilities.
    At Sea-Tac airport in Seattle, Alaska Airlines is leading 
an effort, in partnership with the FAA, the Boeing Company, the 
Port of Seattle, and Southwest Airlines, to use RNP in just 
that way to create more efficient paths that will reduce flight 
path length and in turn reduce time in the air, fuel 
consumption, emissions, and noise. This Sea-Tac project is 
leading edge on the RNP front in that it involves the use of 
RNP in complex airspace, requiring air traffic to be sequenced 
and spaced at altitude as opposed to in the terminal space.
    The lessons learned from and the benefits of the Sea-Tac 
project can be replicated at major airports across the country. 
The benefits are impressive. Carriers equipped to fly these 
procedures at Sea-Tac will save more than 2 million gallons of 
fuel per year, which equates to an annual savings of 22,400 
metric tons of CO-2 emissions. The airline industry and the FAA 
should be leveraging the use of existing technology as much as 
possible to create airspace efficiencies and reduce aviation's 
impact on the environment. That really is the mission of 
NextGen.
    Alaska Airlines is proud to continue our history of 
technological innovation in our use of RNP at Sea-Tac. We look 
forward to replicating the benefits of this project for all 
equipped users at airports across the country.
    Mr. Chairman, that concludes my oral testimony. I am 
pleased to answer any questions from the Committee.
    Mr. Costello. Captain Beck, thank you very much for your 
testimony.
    Ms. Calvaresi Barr, I have a few questions for you. One, 
you stated in your written testimony that the FAA will need to 
implement a formal oversight program to ensure that third 
parties properly follow FAA design criteria and procedures for 
key areas. I wonder if you might elaborate on that statement.
    Ms. Calvaresi Barr. Absolutely. I think we did hear clearly 
across the board that the role of the third parties is 
currently unclear, and while the vision for their use is on the 
development of public procedures as well as special procedures 
that would benefit specific carriers, we call into question how 
well thought out a business case that is and to what extent 
they will be used.
    The first thing that has to happen to have a formalized 
oversight structure is you need to know who you are overseeing 
and what you are asking them to do. So my short answer to this 
is we need to step back, we need to rethink the role that the 
third parties will play. Then we have to recognize what it is 
we are asking them to do. We have to do an in-house assessment 
of our own capabilities and skill sets to oversee what we have 
been asking them to do. We need to have metrics in place to 
measure the ability to achieve the goals, and we need to do 
that on a continual basis.
    And the final thing that I would add is if it is not 
achieving the larger vision, then we need to go back, rethink, 
and have a mitigation contingency plan in place to revision.
    Mr. Costello. You also expressed concerns about how special 
procedures may further complicate the workload for the air 
traffic controllers and increase the complexity of the national 
airspace. I wonder if you might elaborate on that as well.
    Ms. Calvaresi Barr. Sure. I would be happy to.
    I guess if I would put myself in the seat of a controller 
and I was dealing with a number of mixed capabilities and mixed 
procedures, the number one thing I would want to know is how 
big is that mix, what is that mix, what is coming at me, and 
what do I have to be aware of to do my job to ensure safe and 
efficient flights?
    This is an issue. We need to understand what the new routes 
are going to be, what the new procedures are going to be, and 
who is equipped with what, and all the players and 
stakeholders, including the controllers, need to be aware of 
that. They also then need to be properly trained to handle the 
uniqueness of these routes and these procedures, and they have 
to have the tools to do so.
    Mr. Costello. Thank you. Mr. Brantley, you indicated in 
your testimony, you talk about how the FAA must have a 
strategic approach to deploying RNAV and RNP. I wondered if you 
might elaborate on what you think that this strategic plan 
should look like.
    Mr. Brantley. Thank you, Mr. Chairman. Yes, I believe, as 
was just stated, part of the difficulty with everyone coming to 
grips with this or getting on the same page is differences over 
what priorities there may be, how new procedures will fit into 
the overall system, and right now I don't believe the agency 
has a comprehensive plan that stakeholders have bought into 
that they have been part of. I think everyone needs to 
understand what the priorities are for the overall NAS and then 
develop a plan on how to get there. Everyone can't just be in a 
rush, and that is where we have concern with the best equipped, 
best served philosophy.
    It sounds good, but that doesn't necessarily take the 
agency where it needs to go. If everything could transition 
overnight, that is one thing. But since it is going to be a 
phased evolution it has to be done in a logical, thoughtful 
manner in a way that best suits the needs of the overall NAS 
and the flying public.
    So that may cause conflict with different constituents' 
priorities, but I think that has to be grappled with and a plan 
has to be developed to address that as much as possible.
    Mr. Costello. Thank you. Captain Martin, you say that the 
FAA must apply useful RNP procedures, starting with the 
Nation's 35 busiest airports. In your opinion, what is the 
biggest hurdle that the FAA faces in deploying useful 
procedures?
    Mr. Martin. First, let me define "useful." We define 
"useful" at Southwest Airlines as a safe approach, an efficient 
approach, and an accessible approach. We agree with the FAA's 
OEP roll-out plan. We have done a cross inventory against the 
roadmap. And if the FAA meets their plan for deployment, that 
meets our return on investment. So we completely support the 
FAA's OEP plan roll-out. But our definition of "useful" is any 
procedure that we define as safe, efficient, carbon negative, 
and accessible, sir.
    Mr. Costello. Very good. The Chair now recognizes the 
Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much. I appreciate the effort 
that went into each of your statements, and the complete 
statements of course are part of the record. I wonder--there is 
one area that was a theme in many of your remarks, and that is 
that there seems to be something of a chokepoint in going 
through the environmental clearance procedures for these 
variable, more efficient routes into airports. And I sit here 
listening and think to myself, well, if you had an 
environmental impact requirement on the rule here, these more 
efficient routes save time, fuel, reduce emissions overall. So 
is the rule that you are supposed to achieve environmental 
efficiency, is that causing overall environmental inefficiency. 
There is something wrong here with this procedure, because with 
more flexible routes and changes and having to approve all of 
them, it is delaying efficiency in the overall system and it is 
counterproductive.
    Could you comment on that? And is there some way we can 
stand back and figure out a more efficient approach to achieve 
the legitimate goals of these environmental requirements, and 
really achieve them rather than saying we are meeting the 
formal requirement when in fact what we are doing is causing 
more pollution and use of fuel and all the rest of it? Who 
would care to comment? Maybe Mr. Fuller or----
    Mr. Fuller. Yes, sir, I will start. If you think about the 
approval process and you think about rolling out what we think 
are thousands of approaches that take into account aircraft 
performance in order to gain efficiency, we have to think about 
defining the process start to finish that can be achieved and 
repeated very quickly and robustly. The organizations 
responsible for approving the approaches have absolutely got to 
be engaged in the machine, in the factory that produces these 
approaches. And the environmental impact piece of it needs to 
be addressed--what I would consider rationally--against a 
balance of constraints. In other words, if 20 percent of your 
approaches are flying a ground track as described by a visual 
approach, we don't understand the need for reevaluating the 
environmental impact if they are roughly the same track over 
the ground.
    Mr. Petri. They take into account evidently noise and 
emissions right in that area, they don't take into account fuel 
savings, time savings, overall improvements to the environment 
that aren't related to those two factors. So it is kind of a 
weird thing. It pretends to be an environmental impact 
statement. It is really a not-in-my-backyard for people who 
live near airports requirement as best I can tell.
    Mr. Fuller. It most definitely could be.
    Mr. Petri. Any other comments?
    Mr. Day. Yes, sir. First of all, we can't take shortcuts. 
And I think everybody agrees on safety and on our environmental 
responsibility. And our approach to date has been runway by 
runway. And what we propose moving forward is to look at the 
National Airspace System and that when we look at these areas, 
to look at an integrated approach to these performance-based 
procedures so that as we look at the impact on the environment, 
we are looking at adjacent airports and airspace, and we can 
show the overall effect or savings as far as fuel and noise and 
impact on the environment and on the communities.
    So we believe that making the shift from looking at 
individual procedures, to looking more at regions and more of 
an integrated system in the communities, we can streamline the 
procedure and be good stewards of the environment at the same 
time.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentlelady from Hawaii, Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman. We have been talking 
about NextGen for quite a while in this Committee, and I 
confess that just sometimes I get very confused as to what we 
are really talking about and today for the first time we are 
talking about something very concrete. So I thank all of the 
panelists.
    I am curious to know--I commend Southwest and Alaska for 
taking the lead. I am wondering why it is that the other 
airlines such as United, American, Northwest, why they have not 
proceeded to implement RNP since it saves money, fuel, lowers 
carbon footprint, efficiency? It sounds really good. Anybody 
care to opine? FAA person. Sorry. Mr. Day.
    Mr. Day. Certainly. It is tough times for the airlines and 
they do have to make difficult choices in this environment. I 
think everyone is committed and sees the value of these 
performance-based procedures and the larger NextGen system as 
we look at other capabilities and operational improvements. But 
they are oftentimes faced with very difficult decisions. We are 
absolutely delighted that we have had such champions and early 
adopters as Alaska Airlines and American and Delta, and most 
recently, Southwest to be those leaders. And we do think from 
these measurable benefits that Dr. Sinha described, we will 
excite and show the business case for making an investment in 
this capability for these airlines.
    Ms. Hirono. Are some of the other--did you want to say 
something?
    Ms. Calvaresi Barr. I would just also like to add that in 
order to invest that kind of money in the types of avionics 
that these carriers will be required to put on their aircraft, 
they have to be assured at some point that the routes and the 
airspace have been aligned in order to maximize those benefits. 
So if I was buying a system, I would want to make sure that I 
have an environment in which that system would be able to 
return its investment, and right now I think with what we have 
learned, the vision that FAA has currently on the books is just 
overlays of what was the traditional ground-based radar system.
    Ms. Calvaresi Barr.  I am very encouraged to hear Mr. Day 
say that they are taking a step back and they are thinking 
about ways to maximize the airspace. I think once that is done, 
you may see other carriers willing to step up and say now it is 
time to put that kind of money into those high-cost avionics 
because I think I can realize the benefits.
    Ms. Hirono. I think that makes a lot of sense to me.
    Mr. Day, sir, does FAA have some kind of a time frame in 
which they can put in place the kind of procedures and 
basically, I guess, procedures so that other airlines can make 
these kinds of decisions moving forward.
    Mr. Day. Yes, ma'am. So first of all, we have been on track 
with our Flight Plan and also from the recommendations from the 
performance-based aviation rulemaking committee to deploy 
procedures. And from the community we are gathering an interest 
and a desire to really move out more quickly in putting out 
those procedures of value that have measurable benefits and 
solve real operational problems. So we have the NextGen 
Operations and Planning Office, and the Integration and 
Implementation Office, which is responsible for helping to 
integrate all of these operational improvements.
    And as I mentioned before, we are making a shift from just 
production to looking at the National Airspace System in 
geographical areas, and when we go in there, looking at the 
airspace, the airports, including the satellite airports from 
the air transport airports, and taking a redesign of the 
airspace so that we really can provide the value and the 
benefit of having not only the vertical integrity of the 
performance aircraft----
    Ms. Hirono. My time is about to run out, so I am glad that 
you are taking a comprehensive approach.
    But what kind of time frame are you talking about? I don't 
want to rush things. That is not what we are talking about. I 
understand the testimony that says we are not just wanting to 
have numbers here, we want to have qualitative improvements. So 
is there a time frame for you to put these in place so that 
more airlines can use this kind of system?
    Mr. Day. Yes, ma'am. We have a NextGen integration plan. In 
August, we will be getting the recommendation from the RTCA 
NextGen Midterm Implementation Task Force which has over 300 
participants. And we expect them to make recommendations that 
are actionable for us to give that kind of clarity and focus to 
our steps moving forward.
    Ms. Hirono. Mr. Brantley, are you being consulted or are 
you at the table with the FAA in all these discussions and 
planning?
    Mr. Brantley. Not to date.
    Ms. Hirono. I think you should be.
    Mr. Brantley. I agree. We would love to be.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentlelady from Ohio, Mrs. Schmidt.
    Mrs. Schmidt. Thank you. And I really appreciate Mr. 
Costello for holding this hearing.
    Like many on this Subcommittee, I have spent a great deal 
of time looking at ways to stop the flight delays that we are 
seeing, and there are many causes. And I think one of the ways 
we can easily stop the delays is technology and NextGen. 
Everyone on this panel has opened my eyes to the potential and 
the problems.
    I am going to focus my question to Mr. Fuller first, and 
anyone else that would like to answer, simply because Mr. 
Fuller represents my community. General Electric is in my 
community. The headquarters is just outside my district, but 
they test the engines in People's, Ohio, which is in my 
district. And it is very important, and I want to thank GE for 
all that they do to make my district as robust as it can be in 
these tough times.
    So, two questions for you, Mr. Fuller. The first is: Do you 
have any suggestions on how the FAA might streamline the 
lengthy environmental review process for special RNP 
procedures?
    And the second is, the RNP-equipped airline fleet has the 
potential to save an airline significant sums of money, reduce 
emissions, and contribute increasingly to the efficiency of our 
national airspace system. Has the FAA done enough to 
incentivize equipage for airlines? Two parts: speed it up, 
streamline it and incentivize the process.
    Mr. Fuller. Just real quick on the environmental piece, I 
think, getting back to the thought that we need thousands of 
these approaches in a short amount of time frame. To my 
knowledge, the FAA--the United States infrastructure has never 
had this kind of step change over this short duration of time. 
All the aircraft that come out today, every 737 is RNP-capable 
if it has dual FMS. And so we are not going to wait for the 
airplanes to equip the airplanes will not be the delay.
    So the machine that certifies the approach has got to be 
robust and it has got to operate just like every other machine 
that we would have in our facilities or our plants. It has got 
to take the procedures through a process quickly and 
expeditiously, and it has to find means of approving procedures 
on time schedules that would make sense and achieve the kind of 
goals that we are trying to achieve.
    The second part of your question, you know, I think if you 
looked at what really has to happen, performance, the aircraft 
performance, the performance of each aircraft is what drives 
one approach to be excellent and provide benefit or another 
approach to not provide any benefit at all. And so unless we 
create a system that allows the cooperation of industry and the 
cooperation of the approving authorities, we are not going to 
get to the approaches which take into account aircraft 
performance. All aircraft do not fly alike. And so the 
approaches that he wants are not necessarily going to be the 
approaches that are optimum for every other aircraft. But the 
efficiency gains for 737, A320 narrow body aircraft are 
enormous, and so we have to get to that point where we can 
deliver aircraft performance-based procedures.
    Mrs. Schmidt. Does anyone else care to answer the two-part 
question? Or one part of it?
    Mr. Thomann. Ma'am, I would like to point out, in Ohio 
there is a company called NetJets.
    Mrs. Schmidt. That is a pretty decent company. I like that 
company.
    Mr. Thomann. And we need to consider them as well, because 
the business aviation environment--NetJets is, what, 700 
aircraft roughly? It is huge. And they have the same needs that 
we need in the commercial environment. And they certainly 
deal--we all deal in that same airspace. So we need these 
solutions not only for the commercial side but for the business 
and general aviation aircraft.
    Mrs. Schmidt. I do have Lunken Airport in my district, 
which NetJets probably go into quite a bit.
    Mr. Thomann. Yes, ma'am.
    Mr. Costello. The Chair recognizes the gentlelady from 
California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. Good morning.
    Mr. Day, could you please share with this Committee to what 
degree the air traffic controllers have been involved in RNAV 
and RNP in terms of its creation and implementation?
    Mr. Day. As you know, the RNAV/RNP is a complex technology 
requiring a lot of sophisticated software and design 
characteristics. And so, while the overall design makes use of 
engineers, mathematicians and whatnot, when the rubber meets 
the road and we have to apply these procedures we need to 
engage our controllers.
    For example, the National Air Traffic Controllers 
Association was invited and participated in the NextGen RTCA 
Task Force that was making recommendations in August and did a 
yeoman's job in helping us tackle some of those difficult 
issues, and we look for recommendations.
    Likewise, while the design may occur in other offices, when 
we go to the facility for implementation, we do need the 
participation of the controllers in making sure that we solve 
some of these complex problems that have been described as far 
as fitting equipped and nonequipped aircraft into the 
operational environment safely. So they have participated in 
that area, as well as the task force, and we look forward to, 
as we get the recommendations out of the task force, their 
continued involvement.
    Ms. Richardson. On July 3rd, Secretary LaHood came to the 
Los Angeles International Airport and met with the air traffic 
controllers. And I don't believe, based upon what I heard in 
that meeting, I did not walk away with the impression that they 
felt they were fully engaged. And I would venture to say that 
being more involved in a simple stakeholder and an occasional 
meeting probably wouldn't be sufficient. Although we have 
engineers who might deal with the mathematic aspects, it 
doesn't mean that an ongoing personal, up-close personal 
involvement throughout the entire process wouldn't be helpful. 
Would you agree with that?
    Mr. Day. I would agree that, as we do go to the location, 
it is essential that we have the operators directly involved in 
the implementation of these procedures.
    Ms. Richardson. Are they engaged right now in every step of 
the way of what you are doing?
    Mr. Day. I can't say that they are involved in every step 
of the way. I know that I certainly have engagement with 
different representatives from the workforce in this, and we do 
engage subject matter experts as we implement these procedures.
    Ms. Richardson. I would strongly recommend, if you would 
refer back to the staff with the Secretary based upon the 
meeting and what was said, and ensure that to whatever degree, 
because we don't want to reinvent the wheel, and it is far 
better to have people involved all along the way, consistently, 
as opposed to whenever you happen to show up at a particular 
location for them to assist in training or implementation.
    Mr. Day. I will take that IOU. And I was an air traffic 
controller so I do know how important it is to have them 
involved in the process.
    Ms. Richardson. Great.
    Ms. Barr, based upon your testimony and the work that has 
been done so far, in your testimony you said that you would 
recommend that this Subcommittee in particular would keep its 
attention in regard to these two programs. What did you mean by 
that and what specifically are you asking us to do?
    Ms. Calvaresi Barr. I think this is an excellent step right 
now, continued oversight with regards to how FAA is thinking 
about the strategy for RNAV and RNP. Clearly this is an 
enormous undertaking and task, but the benefits can just be 
tremendous. Based on what we know so far, we have raised a 
number of issues with regard to their implementation strategy, 
which has for the most part relied on an overlay of existing 
routes. That is not going to get us the benefits that can be 
realized by these two systems and clearly will not get us to 
what the NextGen goals are. So a continual look and focus on 
the vision and the implementation plan by FAA on that front is 
critical.
    The second point that I would make is, given the discussion 
we have had thus far regarding the role of the third parties, 
if they are, in fact, needed for their expertise to develop 
these kinds of avionics and these kinds of routes, then the 
role has to be clear. All the stakeholders have to know what 
each other is supposed to do, and it has to be put together in 
an integrated and synchronized way.
    So with that, I think much remains to be done. And I think 
keeping a watchful eye over it is a good thing. I can assure 
you the OIG has plans to continue to look at those two efforts 
overall.
    Ms. Richardson. Thank you so much and thank you, Southwest, 
for your participation. I yield back the balance of my time.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the distinguished gentleman from Alaska, the former 
Chairman of the Full Committee, Mr. Young.
    Mr. Young. I thank you, Mr. Chairman. It is always nice to 
be recognized as a former Chairman; but I will tell you it is 
nice to be the Chairman, Mr. Oberstar, it really is.
    But Captain Beck, I am brave, I fly your airline a lot, 
Alaskan Airlines, and I think I know this answer. But I have 
two questions of you. How does the RNP benefit the residents of 
Juneau since you have instigated the RNP technology?
    Mr. Beck. First of all thanks for your business. We 
appreciate it.
    But secondly, we have had a number of saves and I define 
"saves" in my testimony; that is, a flight that would have been 
canceled or diverted if we had not had RNP. And for Juneau 
specifically, through June of this year we have had 338 saves. 
Last year we had 956. This goes all the way back to 2005. I 
believe we had about 550 saves that year. So every year, Juneau 
is about one-third to one-half of all of the saves that we 
experience with RNP.
    Mr. Young. Do you use that same system in any other place 
in Alaska?
    Mr. Beck. Yes, sir. We have got RNP approaches at a number 
of cities. Cordova comes to mind, Ketchikan, Kodiak, 
Petersburg, Red Dog Mine, Sitka, and I believe Wrangle also.
    Mr. Young. Now when you have a save, literally how much 
does that save the airlines; do you have any idea?
    Mr. Beck. Yes, sir. Last year it amounted to a little over 
$17 million in savings. Since 2005 through June 2009, the total 
amount of savings is $61 million.
    Mr. Young. So this is a case where the equipment, although 
expensive, can be paid for pretty rapidly because of the saves?
    Mr. Beck. That is correct, sir. Our investment in RNP is 
somewhere around $35 million. That includes the equipage. The 
equipage is about $300,000 per aircraft, and it includes 
equipage and training of our flight crews so you can see the 
ROI on it has been very good for us.
    Mr. Young. Like I say, I feel very good that you have that 
equipment, because I used to fly into Juneau a lot and still 
do. And it is a little bit awesome, if my members have done 
this, because it is surrounded by mountains. I believe it is 
the safest airport now with this equipment that we have in the 
State, probably because before it was a little bit 
questionable. Now we get in there most of the time, and I just 
want to compliment the airlines for putting the equipment in 
and making it modern.
    I would like to see this done across the Nation because I 
do believe in the long run it saves the pollution and it will 
take and make money for the airlines. And I yield back the 
balance.
    Mr. Costello. The Chair thanks the gentleman, and now 
recognizes the gentleman from Ohio, Mr. Bocceri.
    Mr. Bocceri. Thank you, Mr. Chairman. And I appreciate this 
discussion we are having today. It is very important we get 
this right.
    To Mr. Day, current procedures, departure procedures, SIDs 
and the like, and instrument approaches into air fields are 
already TERPSed, are already evaluated for performance-based 
procedures. I am not real clear on why there is such delay in 
putting weigh points through the RNF system overlaying existing 
routes or existing points that have already been TERPSed, 
already been evaluated for environmental conditions and the 
like. Can you explain to me what the delay is with respect to 
that?
    Mr. Day. I am not sure I understand the question. If it is 
just: is there a delay in production on overlaying the 
departure procedures over ground-based procedures?
    Mr. Bocceri. Yes. For ground-based NAVAID systems, we have 
the automarker, you have the funnel approach fix and the like. 
Why can't we just overlay our NAV positions, our NAV weigh 
points over top of these? Is there some sort of complication 
with technology with respect to that?
    Mr. Day. We can and we do. And I don't know of a specific 
issue that we have. Part ofthis is as you go to the more robust 
performance-based procedures, it requires certification of the 
air crew, the training program, the avionics, and then 
certainly flying and testing the procedure and validating it 
before it goes to publication. So there was just a normal cycle 
time to produce those, but they are not technologically 
difficult.
    Mr. Bocceri. So surely that if we have existing ground-
based landing systems in ground-based NAVAIDs that had existing 
routes, that have already been tested for environmental, 
already have been performance-based on category of aircraft--A, 
B, C, D--that we could put overlay RNF points along them to 
save time. Or you are saying that is not a relatively 
complicated measure?
    Mr. Day. No, sir; it is not.
    Mr. Bocceri. Why hasn't the FAA implemented that if it is 
not very complicated?
    Mr. Day. I think in my remarks, I noted that we have 
published over 8,000 performance-based type of approaches; and 
the overlays, which were the priority early in the life cycle 
performance-based navigation routes, were where the focus was. 
It was on the overlays. And one of the things that we believe 
is important is to shift more towards where the greatest 
benefits are; and as other members on the panel have discussed, 
where we can change the route over the ground and cut miles 
short to really add additional value to the procedures.
    Mr. Bocceri. And I think that the airlines are talking 
about using these RNF procedures because they are very precise. 
They use NAVAIDs and INS systems to make this a very precise 
approach. Does the RNAV program that you have running right 
now--and RNP program--eliminate NextGen, eliminate ground-based 
NAVAID in the future, looking out into the future?
    Mr. Day. Looking out in the future, we do have to solve the 
issue of backup to make sure that we have the safety component 
covered. So, well down the road, because we do have a mixed 
equipage environment, which will depend on ground-based 
navigational capabilities for some time, as the equipage level 
comes up we would expect to see that we will be able to retire 
some of these ground-based assets, which we have already done 
in some cases. I think you mentioned the outer markers and/or 
the ADFs, you know, some of these legacy navigational aids. So, 
yes, over time we will be able to retire some of those assets.
    Mr. Bocceri. I know most pilots love redundancy, and from 
the "department of redundancy department," we should make 
certain that we have a backup, and ground-based NAVAIDs seem to 
be that route.
    Speak to me, as my time wraps up here, about the IKO, in 
international--it seems as if Europe and some of our other 
friends who have much more compressed airspace than we have, 
have already implemented to sort of RNP procedures. Why is 
there such a delay with respect to what we are doing when we 
have much broader airspace than what they are doing?
    Mr. Day. For one, the airlines operate worldwide, and 
business aircraft as well, so we definitely want to harmonize 
internationally those procedures. And we have a number of 
standing Committees working with ICAO, CANSO, and other 
organizations and air navigation service providers to 
synchronize those efforts. And we are making very good progress 
in the area. Also in some air navigation service providers in 
country states, they mandate the equipage, so they could leap 
ahead in the development of those routes. But we are very 
closely harmonized, and I have a number of efforts going to 
harmonize those efforts with other air navigation service 
providers.
    Mr. Bocceri. I think we can be the leaders in this and not 
just followers in terms of what Europe is doing and what other 
countries are doing. It is important that we get this right. 
And I think we have to move with a sense of urgency, especially 
around our congested airports. To help save money, fuel 
efficiency and the like are very important to the airlines to 
keep them solvent. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Tennessee, the former Chairman of 
this Subcommittee, Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    Mr. Day, let me ask you this. In Vision 100 we had an 
environmental streamlining provision that allowed airports to 
help provide funding and even use AIP funds at times to hire 
additional staff to help speed up the NEPA or the environmental 
procedures and reviews. Has that provision been used very much, 
to your knowledge, or should it be expanded in any way?
    Mr. Day. I can't speculate on the expansion of the program. 
It has been a good program, particularly where we are putting 
down new runways and infrastructure in airports. It has been 
helpful to use some of those AIP funds to help fund the 
environmental aspects of those operations related to the new 
runways.
    As you move out from the runways, certainly you get into 
the airspace where then it becomes the responsibility of others 
in the FAA and other budgets to work the environmental issues. 
So we work very closely with the Council on Environmental 
Quality in a lot of efforts to try and streamline the process. 
But at times, based again on ground tracks of aircraft, it can 
be a very lengthy and complicated process.
    Mr. Duncan. Has the FAA made any estimate as to how many 
environmental assessments and full environmental impact 
statements might be necessary to fully implement this program? 
In our briefing paper, it says you have got 2,000 to 4,000 
development targets in the RNAV/RNP procedures, 800 to 1,200 
RNAV and RNP routes; 1,000 to 2,000 RNP approaches; and then we 
get on over, several pages later, and it says it normally takes 
12 to 18 months to do an environmental assessment, and it says 
that these environmental assessments are going to cost $250,000 
to $1 million, and several millions of dollars for a full EIS. 
We have got another estimate saying that up to $5 million and 
as long as 8 years for one of these environmental studies.
    And I just wonder, have you made any estimate or rough 
guess as to how much and how long all this might take?
    Mr. Day. I will have to take an IOU. I am not aware of 
those estimates. I will say, however, that the shift that we 
are making to step away from the legacy and look more towards 
an integrated approach to airspace design meeting up with 
performance-based procedures as well as integration with the 
airports themselves. We believe this will help improve the time 
and the efficiency and use of appropriated dollars to complete 
those environmental studies.
    Mr. Duncan. Well, is the estimate of 800 to 1,200 routes, 
is that accurate? It is in a briefing paper we have.
    Mr. Day. Yes, sir. We believe that is accurate at this 
point in time. And we do believe that that may need to be 
modified once we get the recommendations from the RTCA Task 
Force.
    Mr. Duncan. And would all of those require--or how many of 
those do you think would require full environmental reviews?
    Mr. Day. I can't speculate on what that number will be. 
Again, if we overlay existing routes, we can normally cover 
that with the existing environmental study and any Record of 
Decision relative to those operations. As we move away and put 
aircraft where they hadn't been before, sometimes depending on 
the numbers and the altitudes, the numbers of aircraft and the 
altitudes they fly, it could trigger anything from a 
categorical exclusion to an environmental assessment, all the 
way up to the most complex and expensive environmental impact 
study.
    Mr. Duncan. All right. Thank you very much.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman.
    Mr. Day, in your response to my colleague from California, 
Ms. Richardson's, question about the air traffic controllers 
being part of the NextGen planning process, I was just reminded 
it seems that--I am from New York, Staten Island and Brooklyn, 
New York--and it seems that in the planning for the 
reconfiguration of the airspace there, the air traffic 
controllers were not consulted in that process.
    Am I correct in that belief? And if so, how does that 
comport with what you said about the FAA working so closely 
with the air traffic controllers?
    Mr. Day. If you are referring to the New York/New Jersey/
Philadelphia airspace redesign, that project has been going on 
for some time. And there was quite a bit of involvement, direct 
involvement with the line controllers during that time. There 
was a period where there was not as much involvement, although 
there were subject matter experts that were involved, and we 
continue to talk with the representatives of the air traffic 
controllers and work towards more direct involvement in these 
airspace projects.
    Mr. McMahon. So you will agree with me that that is 
something that should be achieved and they should be part of 
that process?
    Mr. Day. Yes, sir.
    Mr. McMahon. As well as they should be NextGen. Thank you, 
I appreciate that.
    Mr. Fuller, in your written testimony that had been 
submitted, you state that the advanced RNP technology is 
"shovel ready," very important word to Congress and to America. 
And could you just--and it could begin being implemented today. 
Could you explain that more fully for us?
    Mr. Fuller. Sure. Well the work that Alaska Airlines did 
back in the nineties was with the flight management system 
computers of GE Aviation. And the work that Southwest Airlines 
is doing, upgrading their airplanes, is with GE Aviation 
displays and flight management system computers. So new 
aircraft are all capable of RNP today, by and large, every 
narrow body and most of the larger business aviation airplanes. 
So we are ready. The airplanes are ready to go.
    Mr. McMahon. A broad question. I am almost asking you to 
state the obvious, and I will ask if anyone on the panel--or as 
many as can at a time--what, in your opinion, could Congress be 
doing, what could we be doing to help speed up this processing 
to get the next NextGen up and running? I am not stating the 
obvious, but if you have any specific suggestions we would 
certainly appreciate it.
    Mr. Fuller. Was that specifically for me sir?
    Mr. McMahon. If you would start, and if you have some 
thoughts, I would be glad to hear them, Mr. Fuller.
    Mr. Fuller. Sure. We continue to say that the airplanes 
have the capability and it is aircraft performance that counts 
the most; the vision of getting the FAA to realize that time is 
the critical next element in the vision, the narrowing the 
ellipse around the aircraft as it relates to its trajectory 
negotiation is critical in forming the system of the future.
    So as we talk about accelerating the things that are 
important to us is that we collaboratively, the FAA, the 
manufacturers, the airlines, collaboratively and quickly 
demonstrate to ourselves that we can do this amongst a region 
with a little less challenge; that we take those learnings to a 
little more complex region. And we take those learnings to a 
little more complex region; but we continue to learn through 
the process, and we don't lose the opportunity to take those 
learnings from sector to sector to sector, because it is just 
absolutely critical that we take the two decades of learnings 
that Alaska has and the 6 or 7 years that the Southwest has 
been working on this and start pushing those into other 
airlines in other regions.
    Mr. Beck. Sir, if I may comment. I think we really need two 
things. We need an expedited--and we know this is part of the 
obvious--expedited certification and operational procedures 
approval process. And secondly, we need a prioritized list of 
where these procedures provide the most bang for our buck.
    Mr. Martin. Sir, I would like to add also from Southwest 
Airlines, as we move through this project I believe defining 
environmental as carbon in addition to just noise. Our business 
case was also built on fuel reduction and carbon savings. And 
then also establishing the metric; how will we know if we 
succeeded? We can do overlays, we can do special procedures, we 
can do public procedures; but how do we know if we have 
succeeded; what is the metric?
    Mr. Brantley. I will try to be brief. I think doing what 
you have done today, providing oversight, bringing the issues 
to light, is very helpful. And I think continuing to do that 
will be great because so many things have come up today that I 
believe have to be addressed.
    One of the things I have heard a lot is trying to speed 
up--whether it is the review process, the approval process--
development. Those are all great things if it is necessary. I 
think without knowing how many procedures are needed, where 
they are needed, when, who is going to benefit, which ones do 
need environmental reviews, without knowing the answers to all 
that it is hard to say that anything has to go quicker, or if 
it has to go more quickly what needs to be done to expedite it.
    I think that the FAA really has to get their arms around 
the priorities and what is doable. We know we can't implement 
this all at once, so at some point the agency has to decide who 
is first, and when, and lay that out for everyone.
    Ms. Calvaresi Barr.  Yes, I would also just like to 
comment. I think "oversight" is an operative word, but here is 
what I would add to that. These are the things I would want to 
oversee.
    I would want to oversee that FAA is moving from the old 
ground-based system to the new one and the benefits that can be 
achieved. I would want to make sure that they have an 
integrative plan that aligns and synchronizes RNAV/RNP with 
airspace redesign, with ground infrastructure improvements, and 
new avionics, and that their policies and procedures are 
updated to reflect that. Also, that the controllers and pilots 
are trained and that there is an oversight strategy. That is 
the business model. There is a lot within that.
    Third, I would say we need to clarify the role of FAA and 
then the role, alternatively, of third parties. And, finally, 
someone needs to figure out what type of incentive structure we 
need to equip the aircraft with the avionics they will need to 
maximize the benefits.
    Mr. McMahon. Thank you. I see my time is up. I thank you, 
Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    To clarify a point, Mr. Fuller, you indicated that the 
newer aircraft have the equipage. How new? How far back do we 
go?
    Mr. Fuller. Right now the standard 737 coming off the line, 
if it is equipped with dual FMSs, RNP, .1 out of the box, and 
the A320 is also RNP, .15, then capable of .1 as well. So all 
the narrow bodies that are being delivered today are capable of 
RNP. And then a good number of the large business aircraft are 
capable as well.
    Mr. Costello. And how long has that been the case? How far 
back?
    Mr. Fuller. I don't know. I might refer that question to 
Captain Martin or Captain Beck.
    Mr. Martin. Yes, sir I can help you with that. Just as a 
breakdown of our fleet all of the 737 NGs, airplanes we have 
probably taken delivery of in the last 7 to 10 years, are RNP-
capable. Two hundred of our airplanes we refer to as the 
classics require the modifications. So it is safe to say any 
airplanes that have rolled off in the last 7 to 10 years, dual-
FMS-equipped will be RNP, .10.
    Mr. Costello. Thank you. The Chair now recognizes the 
gentleman from Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Day, good morning. I have a few questions for you. For 
months the FAA has touted its best-equipped, best-served policy 
promising more efficient routing for airlines who invest in the 
NextGen technologies. How will the FAA implement this policy?
    Mr. Day. Thank you, sir. The best-equipped, best-served is 
really a notion that we actually have today. If you are 
equipped with a Category 2 or Category 3 ILS capability, you 
have access to an airport that others not equipped don't have. 
Likewise, when we implement the Mode C Veil rule, we, for 
safety reasons, require transponders with altitude and 
reporting.
    So taking those types of policies and applications, we 
realize the best-equipped, best served does not mean 
necessarily best-equipped, first-served. It does mean that we 
create the opportunities, certainly in high density areas, 
where we can provide a service for the profile in the 
trajectory the aircraft wants to fly, so that they can make 
utilization of their investment. It is complicated, and it is 
going to take a lot of industry involvement from many people to 
figure out in an applied fashion how we can introduce that type 
of policy in some of these areas where we want to take 
advantage of the equipment on the aircraft.
    Mr. Dent. Can I also ask you what is the FAA's estimate for 
the cost of training the air traffic controllers to handle the 
larger volumes of the RNP-equipped air traffic. I want to know 
what your estimate is for the cost of training air traffic 
controllers to handle larger volumes for the RNP-equipped air 
traffic.
    Mr. Day. I don't have a cost estimate for that. We can get 
some feedback.
    Mr. Dent. The Committee would like to have that 
information. Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Dent. And how have air traffic controllers, how are 
they accommodating each special RNP procedure designed for 
individual air carriers; for example, the special procedures 
written for Alaska Airlines?
    Mr. Day. One of the challenges on moving to a performance-
based environment is the mixed equipage and the different 
profiles that the aircraft will fly. We have trained the 
controllers on what these profiles look like. There still is a 
lot of complexity and cognitive challenges for our controllers, 
and we are working to get them some tools that will help them 
space these aircraft, and early, very early, identify any 
deviation from course or altitude so that they can do an 
intervention to keep it safe. It is part of the integration of 
these procedures into the existing system that is a major 
challenge of implementing NextGen and where we are putting a 
lot of effort.
    Mr. Dent. Also in your testimony, you noted that 
harmonization with the international community is important. 
What are some of the most pressing concerns that must be 
addressed with the international community as the RNP and the 
RNAV procedures are being implemented?
    Mr. Day. Well, building the consensus is certainly one of 
them. And one of the things we have heard from the operators 
and the manufacturers is they do not want to put double and 
triple equipment for the region of the world that they fly in. 
So that harmonization is important, to identify at a high level 
and get agreement on what the requirements are for aircraft, 
either retrofit or forward-fit, so they can operate worldwide. 
And we are making some good progress on that and continue to 
make that a priority.
    Mr. Dent. And Ms. Barr, my question to you is: Some have 
counted the RNAV and RNP among the low-hanging fruit for near-
term realization of NextGen benefits. Do you think that 
characterization is accurate?
    Ms. Calvaresi Barr. I actually don't. In my statement I 
refer to those two systems as sort of the legs to the table. 
And our understanding is that these two programs, RNAV and RNP, 
represent, out of all the operational capabilities that will be 
needed for NextGen, 50 percent of that. So I would say that 
they are not low-hanging fruit.
    This is an opportunity to redesign our airspace, to take 
greater advantage of it, to have more precision in our flying, 
to achieve a whole bunch of efficiencies. And my understanding 
is that is, in large part, the vision for NextGen. So these are 
major components.
    Mr. Dent. Thank you, and I yield back the time.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman, and Mr. Petri, and 
Committee staff for the splendid work in preparing for this 
hearing and for your continued vigilance, Mr. Chairman, on 
these matters of aviation technology.
    The testimony is both edifying and--well, it is edifying at 
the same time it raises a number of questions. And I think, Ms. 
Calvaresi Barr, you raised the most important issue. It is a 
question I had prepared for myself to ask, but you sort of laid 
the ground work for it.
    And that question, Mr. Day, is has your office--have the 
FAA created a progression graph showing where each of these 
technologies fits in, moving from current NAVAIDs through RNAV/
RNP into whatever other elements there are of NextGen and how 
each fits with the other and how they fit into the grand plan? 
Or are you just doing step at a time without any overall all-
encompassing scheme?
    Mr. Day. Thank you for the question, Mr. Chairman. And, 
yes, we are, in the design of NextGen, which has a number of 
solution sets, which I think you have been briefed on, where we 
take the readiness level of the aircraft and apply the 
performance-based navigation capabilities along with the 
automation to support those, along with capabilities like 
Automatic Dependent Surveillance as a surveillance source and 
DataCom for decreasing voice communications and getting more of 
an Internet-type of connection with the cockpit to transfer the 
information that is needed.
    These are laid out in our NextGen Implementation Plan, and 
that is led by Vicki Cox, our senior vice president of NextGen 
and Operations Planning, and we work with her office to 
integrate these and approach these plans.
    Mr. Oberstar. Do you have a graph that you could submit to 
the Committee for our review of how each of these steps, each 
of these new technology initiatives fits in, lays the ground 
work for, is a stepping stone toward the next level, and the 
cost both for air carriers and for FAA, and where this is going 
over the next 15 years? You have a 15-year projection plan for 
NextGen? I know you have repeatedly--FAA told this Committee it 
is going to take that long.
    And I ask that because over my years, 25 or so overseeing 
aviation, we have gone from one technology to another. This one 
is going to be the stepping stone to the next piece, and the 
next one is going to be interoperable and it is going to be 
interchangeable. And what we are dealing with is piecemeal 
progression, not within a comprehensive overall plan, so that 
we really know where one piece fits into the next.
    And I give FAA enormous credit, which it doesn't receive in 
the secular press. The aviation press, to put it in broadest 
terms, does a good job of following these. But since 1985, if 
my numbers are about right, FAA has installed 65,000 pieces of 
technology to improve safety, improve navigation, improve 
workload of controllers, improve the-- make easier the work of 
pilots and air traffic controllers and professional air systems 
specialists and so on.
    But we turned a corner in all of that. We have gone through 
the AAF, advanced automation system. We have gone through the 
new STARS TRACON technology, we have gone through the end route 
technology, and probably pushed those technologies about as far 
as they can go. Now we are into satellite-based navigation 
technology, and it is going to take a much greater level of 
coordination than ever before, much greater control of costs. 
So I would like you to answer that inquiry.
    Mr. Day. Thank you, Chairman, and we will get that 
information for you. And we have been criticized before for 
lining up programs in a very linear fashion. And that is one of 
the reasons why we developed our Enterprise Architecture with 
clear milestones and have an Integration Implementation Office 
to make sure that these system-of-systems that we are deploying 
are synchronized and are aligned and executed well, using the 
taxpayers' dollars and including a lot of stakeholder 
involvement. But we will certainly go back and give you a very 
detailed description of that.
    Mr. Oberstar. I think the Committee would benefit from 
this.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Oberstar. And other Members have asked the question of 
engaging the air traffic controllers and the professional air 
system specialists in the design and development of these new 
technologies. And you have indicated--but I want to get a more 
clear statement from you--yes, we are engaging controllers, 
professional air system specialists as we develop these 
technologies.
    Mr. Day. I think one of the major commitments that the 
Administrator made, and the Secretary, is to get more line 
involvement in these types of technologies, and we are 
committed to improving those relationships and that involvement 
from our subject matter experts.
    Mr. Oberstar. As STARS was being developed--and goodness 
knows, I went to Raytheon, I went to Lockheed Martin and others 
who were--Lockheed was developing their famous Ollie competitor 
system. And each time I did, I found, well, they are going back 
and redesigning this, because after the engineers at FAA--the 
engineers who were implementing FAA specs at the contractor 
level--presented their ideas to the controllers, they thought, 
Oh, there are major things that we didn't anticipate, we didn't 
ask them about, such as the fixed trackball; it is over here 
for right-handed air traffic controllers; well, what about 
lefties? We are going to have to reach all the way across. So 
that led to the moveable trackball.
    Simple things could have avoided hundreds of thousands of 
dollars of redesign if you just brought them in earlier in the 
process. It isn't a matter of, oh, we want to feel good and ask 
their input after we have designed it. You need to engage them. 
They are the practitioners.
    What benefits do you anticipate for the most complex 
airspace from RNP? Like the new New York TRACON, like the 
Southern California TRACON? The Southern California TRACON 
handles, for those who don't really know why I am asking the 
question--I suppose most of the people in the audience do--but 
it handles more air traffic than all of Europe combined. And so 
does the New York TRACON. It handles navigation for 45 
airports. That is 2-1/2 million operations a year, those two 
alone. We have, what, 30 million operations a year handled by 
TRACONs, and that is more than 10 percent of the whole 
operation in those two TRACONS. How are they going to benefit? 
What do you anticipate?
    Mr. Day. First of all----
    Mr. Costello. And my next question is: How does this fit 
into the east coast design?
    Mr. Day. Thank you for the question, sir. And the real 
exciting part about this is we are moving from that hard-wired, 
ground-based, point-to-point, not scaleable system, to one that 
is network centric, very flexible and agile in fitting the task 
to the design.
    And the exciting part of this is that by using technologies 
like performance-based navigation, particularly the highest 
type, the RNP/SAAAR types of capabilities, we are able to take 
the airspace and the approaches and departure and segregate 
them, both the major air carrier port from the satellite 
airports and the routes that they fly. So particularly where we 
have legacy airports that are land-constrained and we can't add 
any more runways, we will be able to take what I call those 
tightly coupled interdependent operations and segregate them by 
the performance of avionics on the aircraft. And then, of 
course, we will need the automation systems.
    But that is where the tremendous value is here with these 
advanced capabilities is: to untangle the old legacy system. 
But it does require automation. It does require airspace 
design, and it is going to need the involvement of a lot of 
stakeholders, operators as well as controllers and technicians, 
to make this work.
    Mr. Oberstar. I would estimate the FAA has spent something 
like 10- to $15 million on the several east coast airspace 
redesigns, each one shelved because some other group said, oh, 
no, we are going to be impacted by the noise or we don't like 
these approaches or something else has come up in the meantime.
    So, I want to get back to my question: What benefits are 
there going to be for, say, the New York TRACON? How is this 
going to make their--how is RNAV going to make their job 
better? RNP, excuse me.
    Mr. Day. One is the confidence of the precision of the 
approach or the procedure being flown. Right now there are a 
lot of touch points. As you mentioned, the New York TRACON 
interfaces with all the adjacent towers in the centers, and 
technology is no longer the limiter on the performance of the 
system.
    So as we converge the technology with the automation 
equipment, we will be able to give them very good situational 
awareness, very good tools to help them know precisely where 
the aircraft will be, and will alert them when they are out of 
conformance. So I think they will be very excited and see a lot 
of benefit in these tools because their business is providing a 
service. And they care about that. They want to provide the 
best service. And with these tools we believe the RNP as well 
as all the other capabilities that we envision----
    Mr. Oberstar. That is a good step in the right direction. 
It is not a test and I am not challenging you, I am just trying 
to unfold the pieces of this system. Is the software going to 
have to be changed in the TRACONs? Are the screens going to 
have to be changed as part of this? Is this going to require 
some additional hardware and software cost investments?
    Mr. Day. We know the life cycle of the equipment that is 
out there, and we have road maps from surveillance as well as 
navigation and automation, and even facilities that we see in 
the future that we are going to have to make design changes. 
But that will likely involve a number of changes from displays, 
increased use of colors, and different alerting, some new tools 
to help them sequence and separate aircraft, so there will be a 
lot of change over time. But the good news is it will be 
organized, not program by program, but really more as a 
portfolio and an integrated approach to making these very 
needed changes in the system, but doing it in an orderly and 
organized way.
    Mr. Oberstar. There has apparently been a success in 
Alaska. Alaska Airlines says they like these changes; it saved 
them. Southwest. Southwest likes the changes. But you have had 
experience, so in those airspace--up in those airspaces, if you 
will, what have been the technology or equipment changes 
required?
    Mr. Day. In Alaska, for example, we were able through the 
Capstone project to put displays in the cockpit so that they 
would have situational awareness of other aircraft in their 
vicinity, so----
    Mr. Oberstar. Both on the flight deck and at the controller 
level.
    Mr. Day. Yes, sir. At the Anchorage Air Traffic Control 
Center, we are able to surveil and separate aircraft using ADS-
B targets with the radar targets up in the Bethel area. So we 
have been able to--where they didn't have that type of safety 
and service before--at least in the demonstration project, to 
prove that we could use these technologies to provide that 
safety and service.
    And as the gentleman from Alaska Air mentioned, we have 
been able to have just an awful lot of saves, and safety as 
well as good service, for the citizens of Alaska into Juneau.
    Mr. Costello. Will general aviation, not corporate 
aviation, but will piston engine, general aviation aircraft 
benefit, be able to use RNP?
    Mr. Day. Yes, sir. And they are using it now. There is an 
expense, and so not everyone, all facets of general aviation--
--
    Mr. Oberstar. King Air. What would a King Air have to do?
    Mr. Day. Many of them are equipping now with some of the 
advanced avionics. Certainly RNAV equipment. There is more 
expense involved as you go to the higher levels like RNP, and 
they may not need it, dependent on their----
    Mr. Oberstar. They wouldn't need it flying into a 
noncommercial airport. But in flying into one of the 429 
commercial major airports in the country, you certainly want to 
be--if they want to fly in that airspace they will want to use 
that technology. What would it cost to equip a King Air or 
Queen Air to use that technology?
    Mr. Day. I don't have it off the top of my head but I know 
we do have those estimates for different states of equipage, 
whether it be from the low end to the very high end, or also 
whether it is a retrofit or a forward-fit for those aircraft. 
We can get that for you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Oberstar. We have probably 100,000 of those types of 
aircraft that use the commercial airspace, and it is of 
importance. And when I have to travel around my district, and 
need to go from the Canadian border, International Falls to 
Minneapolis/Saint Paul, and there isn't Northwest Airlines 
service, I have to charter. And I want to know that my charter 
operator is going to be able to--and I hear this from other 
Members as well. It is a general question so it would be useful 
to have that.
    Mr. Thomann, will Jefferson/Boeing--it is so sad that 
Jefferson disappeared on its own. Such a great name in 
aviation. It was swallowed up by Boeing. But at any rate----
    Mr. Thomann. We are privileged.
    Mr. Oberstar. Good answer. I am sort of a nostalgist. Some 
of these things it would be nice to be left alone. But at any 
rate, will you continue to produce hard-copy charts, or will 
this remarkable progress in technology succumb to simply 
changing the software on the computers on board aircraft?
    Mr. Thomann. It will be both. So we are continuing in this 
digital transformation. As you know, it is a 75-year-old 
company, with good old Captain Jeff, started drawing those 
charts on that little black book. We are still drawing those 
charts. In fact, we print about a billion of them. And that is 
down from about 2.2 bil.
    As we get new technologies and the general aviation 
aircraft--which, by the way, are capable of flying RNP--and 
they use them in smaller airports or, like, going into Eagle, 
Colorado, where it is very terrain-challenged, RNP allows an 
airplane to get in there, where normally it would take a 1,200 
AGL above the ground for this person's minimum with 4 miles 
visibility. With RNP, you are pushing it down to 400 feet, a 
mile and a quarter. So it allows these aircraft also to 
participate.
    To answer your question, sir, we are going to continue to 
print the paper charts until we can get a total digital 
transformation, which is our end goal.
    Mr. Oberstar. All the Digital Age is wonderful. I do not 
demean it in anyway. And I love seeing those pilots with stacks 
of charts this thick. And I worry when they come on board with 
something this size that will have 1,200 charts in it and 
something blows a fuse.
    Mr. Thomann. So you can get our charts that way now, sir.
    Mr. Oberstar. I know. And then there is going to be the 
day, as happened to me, when the pilot turns to me and says, Is 
that White Iron Lake down there? And I say, It sure is. And he 
says, I have never flown up here before, I wasn't sure.
    So, yes, I am not a Luddite. I think these are great. But 
when they fail, then you are really out of luck.
    Mr. Thomann. They can be--and there is enough redundancy, 
and I am a pilot with a pacifier myself, sir. So when I fly a 
little Cirrus, it has all the avionics that I could possibly 
ask for and the electronic charts. But I still have my pacifier 
in the left seat, which is a paper chart.
    Mr. Oberstar. That is a good idea.
    Thank you, Mr. Chairman, for being vigilant. I thank our 
staff for their splendid work on this complex matter. And we 
will continue to revisit, and we ask the IG to continue your 
vigorous oversight, and thank Southwest and Alaska for real-
world participation.
    Mr. Costello. The Chair thanks you, Chairman Oberstar.
    And do other Members have questions? If not, let me assure 
you and the IG's Office, Ms. Calvaresi-Barr, that we will 
continue to provide vigilant oversight at the Subcommittee 
level.
    As you know, we have had a number of hearings on NextGen. 
We will continue. And we have had roundtables too, not just 
formal hearings, but we have sat down informally with not only 
folks from the FAA but the inspector general's office and 
others in the industry to get updates, reports, and try and 
stay abreast as to what progress or the lack of progress is 
being made.
    So I think some very good points were made this morning. We 
appreciate all of your testimony. And this concludes the 
hearing today. And the Subcommittee will stand adjourned. Thank 
you.
    [Whereupon, at 12:01 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
